<html>
<title> - THE FUTURE OF IRAQ'S MINORITIES: WHAT IS NEXT AFTER ISIS ?</title>
<body><pre>[Senate Hearing 115-664]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-664

                    THE FUTURE OF IRAQ'S MINORITIES: 
                       WHAT IS NEXT AFTER ISIS ?

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON WESTERN HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY, 
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                              __________

                           OCTOBER 4, 2017
                              __________


       Printed for the use of the Committee on Foreign Relations


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                            ___________

                   U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-486 PDF                WASHINGTON : 2019  


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey




       SUBCOMMITTEE ON WESTERN HEMISPHERE, TRANSNATIONAL        
       CRIME, CIVILIAN SECURITY, DEMOCRACY, HUMAN RIGHTS,        
                   AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia




                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1


Kaine, Hon. Tim, U.S. Senator from Virginia......................     3


Wolf, Frank R., Distinguished Senior Fellow, 21st Century 
  Wilberforce Initiative, Falls Church, VA.......................     4

    Prepared statement...........................................     7


Natali, Denise Ph.D., Director, Center for Strategic Research, 
  Institute for National Strategic Studies, National Defense 
  University, Washington, DC.....................................     9

    Prepared statement...........................................    11

              Additional Material Submitted for the Record

Northern Iraq 2017, by Hon. Frank R. Wolf Distinguished Senior 
  Fellow, 21st Century Wilberforce Initiative....................    27





                             (iii)


 
                   THE FUTURE OF IRAQ'S MINORITIES: 
                       WHAT IS NEXT AFTER ISIS ?

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2017

                               U.S. Senate,
                    Committee on Foreign Relations,
  Subcommittee on Western Hemisphere, Transnational Crime, 
    Civilian Security, Democracy, Human Rights, and Global 
                                            Women's Issues,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:35 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
presiding.
    Present: Senators Rubio [presiding], Kaine, and Shaheen.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. Now we are back in a hearing 
of the Subcommittee on Western Hemisphere, Transnational Crime, 
Civilian Security, Democracy, Human Rights, and Global Women's 
Issues.
    If you guys are coming to the hearing, you need to sit 
down. Thank you. It feels like I am at home here. ``Close the 
door. We're working over here.'' [Laughter.]
    Senator Rubio. Anyway, the title of the hearing is, ``The 
Future of Iraq's Minorities: What Is Next After ISIS?''
    So we will have one panel testifying here today, and the 
panel features, of course, former Congressman Frank Wolf, who 
was just part of our previous nomination hearing as well, where 
he introduced the President's nominee to be the Ambassador at 
Large for International Religious Freedom. He is a 
distinguished senior fellow at the 21st Century Wilberforce 
Initiative. And Ms. Denise Natali, who is the director of the 
Center for Strategic Research at the Institute for National 
Strategic Studies at the National Defense University.
    Both of them have long and distinguished careers, and we 
are fortunate to have the benefit of their expertise and 
testimony here today.
    The hearing is especially timely, not only because we have 
a new administration that is still working through and 
formulating its Iraq policy, but also because, for some of the 
communities in Iraq that are in question and are being 
impacted, for them, the hour is late, and their continued 
presence in the lands they have inhabited since antiquity 
literally hangs in the balance.
    Three years ago, ISIS began a brutal campaign in northern 
Iraq, a campaign against Christians, Yazidis, Shia Muslims, and 
other smaller religious minorities, ruthlessly murdering 
innocent men and women and children, and destroying communities 
that have been there for millennia.
    The images of these vulnerable communities fleeing for 
their lives sent shockwaves around the world. During the ISIS 
seize of Mount Sinjar, tens of thousands of Yazidis were 
trapped without food or water, and the Islamic State massacred 
and kidnapped and enslaved members of this community. Girls 
were separated by eye color and sold as sex slaves to ISIS 
fighters based on their preference.
    Similarly, in Iraq, their ancient Christian community was 
and is under assault. Fifty thousand fled Mosul to the Nineveh 
plains as ISIS advanced eastward. Days after the Sinjar 
massacre, ISIS seized Qaraqosh, which is the city in Iraq with 
the second largest population of Christians, and thousands more 
were displaced. Death, kidnapping, and forced conversions 
ensued.
    Places of worship and holy sites that had been there for 
centuries were defaced. They were bombed, looted, destroyed, 
including the 1,400-year-old monastery of Saint Elijah.
    It was clear that the bloody campaign targeting ethnic and 
religious minorities amounted to genocide, and the Obama 
administration and now the Trump administration have rightfully 
declared it as such. While these designations are significant--
quite frankly, even historic, and clearly justified--the fact 
is that the words alone are cold comfort to these communities 
whose lives have been upended, places of worship destroyed, and 
their communities and families ripped apart.
    One of the issues that prompted this hearing is the seeming 
disconnect between the millions of dollars in U.S. humanitarian 
assistance to Iraq and the inability of these communities 
targeted with genocide to adequately access this aid. Clear 
congressional directives over multiple years have gone 
unheeded, unimplemented, and, frankly, ignored.
    There has been an overreliance, beginning during the 
previous administration and seemingly continuing apace today 
under the new administration, on the United Nations' 
development fund to administer U.S. assistance. This U.N. 
agency has shown little interest in following congressional 
appropriations language, and our own U.S. Government agencies 
have not demanded that accountability.
    So I am heartened that Administrator Mark Green himself, a 
former Member of Congress, is now at the helm of USAID. I know 
that he is personally invested in addressing this issue.
    Despite divisions within Iraq's religious minority 
communities, I was encouraged to learn of the creation of the 
Nineveh Reconstruction Committee, a formal ecumenical 
partnership between the three largest Christian churches in 
Iraq--the Chaldean Catholic Church, the Syriac Catholic Church, 
and the Syriac Orthodox Church. Representing the overwhelming 
majority of Christians that remain in Iraq, this was an 
important step.
    As we discuss the plight of Iraq's religious minority 
communities, we also must look at the broader context of Iraq's 
minorities, particularly the Kurdish people living in Iraqi 
Kurdistan. Once again, all eyes were on Iraq last week as the 
Kurdistan Regional Government pressed forward with their 
nonbinding referendum for independence from Iraq, despite broad 
international calls for delay, including from the highest 
levels of the U.S. Government.
    I was among those urging a delay for many reasons, not the 
least of which was my concern about how the already vulnerable 
religious minorities, especially those residing in the 
contested areas, would fare in such a scenario.
    Following the referendum, the tensions are predictably 
high. At this time, the U.S. is not supportive of a unilateral 
referendum by the KRG. However, we must urge restraint from 
both sides and work with both sides to de-escalate tensions 
between Baghdad and Erbil, as well as with Iran and Turkey. Any 
violence or further escalation from any party will only deepen 
the problem.
    I am concerned about news reports that Iranian and Turkish 
militaries are engaged in provocative military exercises near 
the Kurdish regions in Iraq, and that the central government in 
Baghdad is taking retaliatory and even discriminatory action 
against the KRG and Kurdish members of parliament.
    The KRG are important partners in the fight against ISIS, 
and we, along with our partners, including Iraq's central 
government, must maintain our focus on defeating ISIS.
    In the interim, we should support KRG requests for 
mediation with the Government of Iraq and create space for them 
to present its views.
    In the coming weeks and months, the U.S. must be forward-
leaning in our Iraq strategy in the hopes of preserving the 
communities that have been a part of the fabric of Iraq for 
centuries. Their continued existence, and even their 
flourishing, is not simply a moral imperative given the grave 
injustices that they have suffered. It is also a key strategic 
and national security priority because they are key to any 
future pluralistic Iraq that respects religious freedom.
    Often, we consider patience a virtue. But the time for 
patience on this issue has passed. Urgency must now animate us 
moving forward.
    The U.S. should implement timely and targeted assistance to 
the Christians, Yazidis, and other minority internally 
displaced persons targeted by ISIS so that they are able to 
return to their homes.
    I look forward to the recommendations from our witnesses in 
this regard. You have experience that will contribute greatly 
to this discussion.
    Senator Kaine?

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chair.
    Just briefly, we have great witnesses here on an important 
topic. We cannot take for granted the continuing battle against 
ISIS. The progress has been very, very strong since August 2014 
when President Obama decided that they were a significant 
enough threat that we should take action against them. And our 
military leadership, working in tandem with the coalition, has 
done really good work on the battlefield, and more remains to 
be done.
    However, as the ISIS pressure has been reduced in some 
parts of the country, other pressures come to light, pressures 
that might have been temporarily sidelined as everybody focused 
on the battle against ISIS. I have been in Erbil and dealt with 
the issues that the chair was talking about, tensions between 
Erbil and Baghdad, and dealt with a Chaldean Catholic Church in 
Kurdistan and church leaders there, and see significant 
tensions ahead. We need to get ahead of them rather than just 
be in a responsive posture.
    And I think the witnesses today have good recommendations 
for analysis of the situation. But even better, we do a lot of 
diagnosis up here, and sometimes we are short on the 
prescription. But I think the witnesses are not just going to 
give us a good diagnosis. I have read their written testimony, 
and I think they are going to offer us some prescription as 
well, which is important.
    I appreciate you being here.
    Senator Rubio. Thank you. With that, I guess, the Honorable 
Frank Wolf, we again welcome you to the microphone for the 
second time this morning. On this very important topic, you 
have a long history of contribution. I know you traveled to the 
region recently, and we thank you for being here, and we look 
forward to your testimony.

 STATEMENT OF FRANK R. WOLF, DISTINGUISHED SENIOR FELLOW, 21ST 
        CENTURY WILBERFORCE INITIATIVE, FALLS CHURCH, VA

    Mr. Wolf. Thank you, Chairman Rubio and Senator Kaine and 
Senator Shaheen. I appreciate the hearing very, very much.
    After a week visiting Bartella, Qaraqosh, Duhok, Erbil, 
Mosul, Nimrud, Mount Sinjar, and Sinjar City in August, and 
talking with individuals from the various communities, I am sad 
to say that if bold action--bold action--is not taken by the 
end of the year, I believe a tipping point will be reached, and 
we will see the end of Christianity in Iraq in a few short 
years, and a loss of religious and ethnic diversity throughout 
the region, a loss that will not be regained and could result 
in further destabilization, violent extremism, and terrorism 
across the Middle East.
    In other words, ISIS will have been victorious in their 
genocidal rampage, unless concrete action is taken.
    Iraq is a land rich with biblical history. Abraham was born 
there. Daniel lived and died there. And many events of the 
Bible took place in Iraq. And yet, we have already seen the 
Christian population drop from 1.5 million to now 250,000 or 
less, some even say 150,000, over the course of the past 14 
years.
    This exodus continues with additional families leaving 
every day in search of physical security, economic security, 
and education.
    Having spent the past 3 years as internally displaced 
people, IDPs, many Christian families are at a crossroads, 
having to decide whether or not they should return to their 
newly liberated villages or just leave Iraq forever. Despite 
their best efforts, many believe that they can stay only if 
bold action is taken by the United States and other 
international partners to ensure their security.
    While I went expecting to hear further reports about 
security concerns related to ISIS, I was surprised to find that 
most individuals I spoke with were concerned about the various 
military factions controlling their towns and villages, in 
particular, the Hashd al-Shaabi, also known as the Popular 
Mobilization Forces, or the PMF.
    The Hashd-al Shaabi militia, which is backed by Iran, and 
other militia groups are filling the vacuum left post-
liberation.
    This is part of the Iranian goal of creating a land-bridge 
from Iran through Iraq to Syria to reach a port in the 
Mediterranean.
    We went through checkpoint after checkpoint after 
checkpoint. It was not the Peshmerga. It was not the Iraq 
military. It was this militia group.
    Such a land-bridge will allow Iran to move fighters, 
weapons, and supplies to aid Hezbollah and other terrorist 
groups. This will be a direct threat to Israel, a direct threat 
to the United States military, as well as others in the West.
    Literally, they will be able to get in a van in Tehran, 
drive from Tehran through Iraq, through Syria, to a port in the 
Mediterranean.
    Among the Yazidi community, we heard many of the same 
concerns. Sinjar is a prime example of the complications the 
minority communities on the ground continue to face.
    Considered a contested territory by the central government 
and the Kurdistan Regional Government, Sinjar has been 
liberated from ISIS since the fall of 2015. However, it is 
currently controlled by multiple different militia groups.
    We saw very few who have returned. A house here, and then 
nobody for blocks. Then another house here, then nobody for 
blocks.
    Due to this, few families have been able to return, and few 
aid groups work in the area due to the potentially volatile 
situation, after having been the victims of genocide and with 
3,000 of their women and girls still in captivity.
    Yesterday, there was a hearing on the House side. There was 
a Yazidi woman there who testified. She said she saw the person 
who did it--and I will not go into what he did to her--living 
in a refugee camp, maybe funded by the U.N., maybe funded by 
the United States.
    So this ISIS guy got room and board, basically. And the 
Yazidi community is just pretty much forgotten about. And there 
is no counseling service for these young girls and women who 
have been held by ISIS over the years.
    One of the Yazidi religious leaders we met with stated, 
``We just want to be able to live.'' Unfortunately, to a large 
extent, U.S. Government assistance has not been forthcoming to 
Iraq's Christian and Yazidi communities, even though the 
President, the Vice President, Congress, and the Secretary of 
State have declared them victims of genocide.
    Many of the displaced Christians, for example, have had to 
seek the mainstay of their aid from private charitable sources 
on a piecemeal basis over the last 3 years. This is becoming 
more difficult as many individuals who give to humanitarian 
organizations are facing donor-fatigue.
    It is imperative that the United States help the Christians 
and Yazidis to return to their hometowns. As a U.N. official 
aptly stated in a recent meeting, ``The religious minorities 
need unique solutions.'' What works to return Sunni Muslims to 
Mosul will not work to return religious minorities to contested 
areas.
    Since 2014, Congress has had over 40 different hearings 
related to ISIS, including seven specifically on the topic of 
religious minorities, and required the State Department and 
U.S. Agency for International Development to spend some funds 
on assistance specifically for genocide survivors from 
religious and ethnic minorities.
    Congressional resolve, and the force of law, must be 
matched by administration action.
    Some recommendations.
    Now that the military battle with ISIS is largely over, our 
government needs fresh eyes. We need fresh eyes on the target 
to bring some people, almost like the Baker-Hamilton commission 
did to Iraq before, fresh eyes not only to see with regard to 
current policies, but victims of genocide, war crimes, but also 
because of the critical national security interests in the 
region.
    If the Iranians get a corridor to the Mediterranean, there 
are going to be some serious problems. We have a vested 
interest because we lost 4,000 Americans who gave their lives, 
and we spent over $2 trillion of taxpayer money.
    Secondly, a presidential decision directive or a 
presidential memorandum should be issued directing the State 
Department and USAID to immediately address the needs of 
communities identified by Secretary Tillerson as having been 
targeted by genocide. This would address both humanitarian aid 
for those living as IDPs and refugees, and stabilization 
assistance for those returning to those areas.
    Thirdly, a post should be established by the White House 
for an interagency coordinator to guarantee that the needs of 
these communities are adequately addressed to ensure their 
safety and preservation consistent with United States foreign 
policy.
    When President Bush appointed Senator John Danforth, who I 
think used to serve on this committee, to be the envoy to work 
on similar issues in Sudan, the announcement was made in the 
White House Rose Garden. It was the day before 9/11, with 
Senator Danforth standing between President Bush and Secretary 
of State Colin Powell. This sent a powerful message to the 
world and to the suffering people of Sudan.
    So I recommend the same level of announcement for the 
person to fill this position. It will be held at the White 
House with President Trump and Secretary Tillerson, and will 
send a message that America is engaged. And the Christians and 
Yazidis and those who have suffered genocide would know that it 
is not just words. We really have someone to really work on 
this.
    Now, when groups come into town, do they go to USAID? Do 
they go to the State Department? Do they get to the DOD? There 
will be one place to go, and I think this is very important.
    Lastly, Congress should immediately pass H.R. 390, the 
bipartisan Iraq and Syria Genocide Emergency Relief and 
Accountability Act, authored by Chairman Chris Smith and 
coauthored by Congresswoman Anna Eshoo. It gives explicit 
authorization for the State Department and USAID to identify 
the assistance needs of genocide survivors from religious and 
ethnic minority communities, and provide funding to entities, 
including faith-based entities, effectively providing them with 
aid on the ground.
    This is essential, because some within the State Department 
and USAID have claimed they lack the authority to deliberately 
help religious and ethnic communities, even if they are 
genocide victims and will become extinct without assistance. 
Although there is nothing in U.S. law preventing them from 
helping genocide-surviving communities, the authorization will 
help ensure the aid actually flows to the victims.
    The House passed H.R. 390 on June 6, and the Senate Foreign 
Relations passed it on September 19. Hopefully, the Senate will 
pass the bill quickly so it can be sent back to the House and 
then to the President for signing.
    Also, it deals with dealing with those who have committed 
criminal activities. We remember, after Nazi Germany, many of 
the Nazis embedded themselves, went to America, went to 
different countries. We funded an office at the Justice 
Department to track them down.
    In Rwanda, the same thing. Rwandans who were involved in 
genocide spread. You could not find them. You had to track them 
down.
    The same thing in Srebrenica. You had Serbs and Croats who 
were involved in genocide with regard to the Bosnians, and we 
had to track them down.
    These ISIS people are going to begin to spread and move and 
go around. Frankly, I think we need what Mr. Smith's bill does.
    Lastly, there is still time, but the hour I believe--and I 
may be wrong. I may be wrong. I think the time is about to run 
out.
    We cannot allow ISIS to be successful in their genocide. We 
are aiding these people not because they are Christians, not 
because they are Yazidis, not because they are Shia Turkmen. We 
are aiding them because they were subject to genocide, and the 
word ``genocide'' carried a powerful message.
    So they are waiting, and many are just waiting and waiting. 
So I think there is time, but if we do not do something by the 
end of the year, I think we will reach a tipping point, and I 
think it will be over.
    [Mr. Wolf's prepared statement follows:]


                Prepared statement of Hon. Frank R. Wolf

    To begin I would like to thank Chairman Rubio and Senator Kaine for 
holding this hearing today.
    After a week visiting Bartella, Qaraqosh, Duhok, Erbil, Mosul, 
Nimrud, Mt. Sinjar, and Sinjar City in August and talking with 
individuals from the various communities, I am sad to say that if bold 
action is not taken by the end of the year, I believe a tipping point 
will be reached and we will see the end of Christianity in Iraq in a 
few short years and a loss of religious and ethnic diversity throughout 
the region--a loss which will not be regained and could result in 
further destabilization, violent extremism and terrorism across the 
Middle East. In other words, ISIS will have been victorious in their 
genocidal rampage unless concrete action is taken.
    Iraq is a land rich with Biblical history. Abraham was born there, 
Daniel lived and died there and many events of the Bible took place in 
Iraq. And yet, we have already seen the Christian population drop from 
1.5 million to 250,000, or less, over the course of the past 14 years. 
This exodus continues with additional families leaving every day in 
search of physical security, economic security and education. Having 
spent the past three years as Internally Displaced People (IDP's), many 
Christian families are at a crossroads, having to decide whether or not 
they should return to their newly liberated villages or leave Iraq 
forever. Despite their best efforts, many believe that they can stay 
only if bold action is taken by the US and other international partners 
to ensure their future security.
    While I went expecting to hear further reports about security 
concerns related to ISIS, I was surprised to find that most individuals 
I spoke with were concerned about the various military factions 
controlling their towns and villages--in particular the Hashd al-Shaabi 
(also known as the Popular Mobilization Forces or PMF). The Hashd-al 
Shaabi militia, which is backed by Iran, and other militia groups are 
filling the vacuum left post-liberation. This is part of the Iranian 
goal of creating a land-bridge from Iran, through Iraq to Syria to 
reach a port on the Mediterranean.
    Such a land-bridge will allow Iran to move fighters, weapons and 
supplies to aid Hezbollah and other terrorist groups. This will be a 
direct threat to Israel and the United States military as well as 
others in the West.
    Among the Yazidi community we heard many of the same concerns. 
Sinjar is a prime example of the complications the minority communities 
on the ground continue to face. Considered a contested territory by the 
Central Government and the Kurdistan Regional Government, Sinjar has 
been liberated from ISIS since the fall of 2015, however, it is 
currently controlled by multiple different militia groups. Due to this, 
few families have been able to return and few aid groups work in the 
area due to the potentially volatile situation. After having been the 
victims of genocide and with 3,000 of their women and girls still in 
captivity, one of the Yazidi religious leaders we met with stated, ``We 
just want to be able to live.''
    Unfortunately, to a large extent, U.S. Government assistance has 
not been forthcoming to Iraq's Christian and Yezidi communities even 
though the President, Vice President, Congress and Secretary of State 
have declared them victims of genocide. Many of the displaced 
Christians, for example, have had to seek the mainstay of their aid 
from private charitable sources on a piecemeal basis for over three 
years. This is becoming increasingly difficult as many individuals who 
give to humanitarian organizations are facing donor-fatigue.
    It is imperative that the United States help the Christians and 
Yazidis to return to their home towns. As a U.N. official aptly stated 
in a recent meeting, ``the religious minorities need unique 
solutions.'' What works to return Sunni Muslims to Mosul will not work 
to return religious minorities to contested territories.
    Since 2014, Congress has had well over 40 different hearings 
related to ISIS, including at least 7 specifically on the topic of the 
religious minorities and required the State Department and U.S. Agency 
for International Development to spend some funds on assistance 
specifically for genocide survivors from religious and ethnic 
minorities. Congressional resolve, and the force of law, must be 
matched by administration action.
    In closing I would like to provide a few recommendations:


 1. Now that the military battle with ISIS is largely over, our 
        government needs "fresh eyes" in Iraq with regard to our 
        current policies, not only for the victims of genocide, war 
        crimes and crimes against humanity, but also because of the 
        critical national security interests in the region. Failure to 
        act soon may result in chaos and violence in the region yet 
        again. The United States has a vested interest in promoting 
        peace and stability in a region where over 4,000 Americans gave 
        their lives and $2 trillion dollars of taxpayer money was spent 
        in the past 13 years. A high-level group of individuals with 
        expertise in the region should be brought together to do an 
        assessment of the current situation and make recommendations 
        for our policy going forward.

 2. A Presidential Decision Directive or Presidential Memorandum should 
        be issued directing the State Department and USAID to 
        immediately address the needs to communities identified by 
        Secretary Tillerson as having been targeted for genocide. This 
        would address both humanitarian aid for those living as IDP's 
        and refugees and stabilization assistance for those returning 
        to the areas seized from them by ISIS.

 3. A post should be established by the White House for an inter-agency 
        coordinator to guarantee that the needs of these communities 
        are adequately addressed to ensure their safety and 
        preservation consistent with United States foreign policy. When 
        President Bush appointed Senator John Danforth to be the Envoy 
        to work on similar issues in Sudan, the announcement was made 
        in the White House Rose Garden with Sen. Danforth standing 
        between President Bush and Secretary of State Colin Powell. 
        This sent a powerful message to the world and the suffering 
        people of Sudan. I recommend the same level of announcement for 
        the person who will fill this position. It should be held at 
        the White House with President Trump and Secretary Tillerson. 
        This will send a message that America is engaged. The 
        Christians and Yazidis have faced genocide and for the longest 
        time the United States and the West has offered little more 
        than words.

 4. Congress should immediately pass H.R. 390, the bipartisan Iraq and 
        Syria Genocide Emergency Relief and Accountability Act, 
        authored by Chairman Chris Smith and coauthored by 
        Congresswoman Anna Eshoo. It gives explicit authorization for 
        the State Department and USAID to identify the assistance needs 
        of genocide survivors from religious and ethnic minority 
        communities and provide funding to entities--including faith-
        based entities--effectively providing them with aid on-the-
        ground. This is essential, because some within the State 
        Department and USAID have claimed they lack the authority to 
        deliberately help religious and ethnic communities, even if 
        they are genocide victims and will become extinct without 
        assistance. Although there is nothing in U.S. law preventing 
        them from helping genocide-surviving communities, the 
        authorization will help ensure the aid actually flows to the 
        victims. The House passed H.R. 390 on June 6 and Senate Foreign 
        Relations Committee passed it on September 19. The Senate 
        should pass the bill quickly so it can be sent back to the 
        House and then the President for signing.


    There is still time, but the hour is late and we are about to run 
out of time. We cannot allow ISIS to be successful in their genocide.


    Senator Rubio. Thank you for that.
    Dr. Natali?

    STATEMENT OF DENISE NATALI, PH.D., DIRECTOR, CENTER FOR 
 STRATEGIC RESEARCH, INSTITUTE FOR NATIONAL STRATEGIC STUDIES, 
          NATIONAL DEFENSE UNIVERSITY, WASHINGTON, DC

    Dr. Natali. Thank you, Mr. Chairman, Mr. Ranking Member, 
distinguished members of the committee, for the opportunity to 
testify on the future of Iraq's minorities.
    I would like to note that these are my personal views and 
not those of the United States Government, the Department of 
Defense, or the National Defense University.
    I would like to talk about where I see the vulnerabilities 
of the minorities, much of this based on my 25 years working in 
and out of the north. I just came back 2 weeks ago from the 
north as well as Baghdad, speaking to a host of folks.
    Much of this, in my view, after ISIS, is rooted in the 
larger political framework of Iraqi politics, and, of course, 
as you indicated, the differences within these religious 
minority groups. In addition to Yazidi and Christian, as was 
indicated, there are Turkmen, Armenians, Circassians, Jews, 
Kaka'is, Shabaks, Faily Kurds. Many of these groups are all 
living in northern Iraq.
    In addition to their shared persecuted beliefs for 
religion, these groups also have overlapping ethnicity, 
language, and geography. Some Yazidis who are living in one 
part of Northern Iraq are divided and emphasize the fact that 
they are not Sunni Kurdish. they differentiate themselves from 
Sunni Muslim Kurds, as they will say.
    Within the Assyrian community, and there was a fantastic 
document that just came out called, ``Erasing Assyrians,'' they 
now emphasize that they are an ethnic group that is in the 
process of being extinguished alongside the fact the Kurdistan 
Regional Government controls Nineveh.
    My point is, these groups are divided between their support 
for the Iraqi Government, their support for the Kurdistan 
Regional Government, and many, many who just want to be left 
alone and live autonomously.
    The biggest threat, in my view, after ISIS, is the fact 
that these minority groups are caught in the political 
crossfire, and they are being used as cannon fodder for 
everybody else's contestations.
    The biggest problem, as you have indicated, is the issue of 
the disputed territories. I do not think enough attention is 
being given to the fact that most of the territories of the 
minority groups are in northern Iraq. They regard this 
territory as their ancestral lands. The Iraqi Government and 
the Kurdistan Regional Government regard it as disputed and 
their own. They [the minorities] are not strong enough to 
defend themselves, so, again, they are being put in this 
crossfire.
    In addition, there is the proliferation of militia all 
across Iraq.
    Not to be an academic nitpick, but of these Hashd al-Shaabi 
(or Popular Mobilization Forces), 80 percent are with the Iraqi 
Government. Between 10 and 30 percent are backed by Iran. Thus, 
there is a significant group that is official. They are 
integrated with the Iraqi Government. In fact, some Yazidis and 
Assyrians are also working with these Popular Mobilization 
Forces.
    So we need to be careful about making these kind of 
generalizations about all the Hashd al-Shaabi when certain 
groups are in certain localities and some are coordinating with 
other minority groups.
    When I was back in Iraq in March, there was violence that 
broke out in Sinjar, and that violence affected the Yazidis, as 
the Honorable Frank Wolf said. But the violence was between two 
Kurdish groups. So we have to be careful, again, when we are 
looking at who is fighting whom, and how Yazidis, Assyrians, 
and everybody else is caught in the crossfire.
    I will make a couple points about the Kurdish referendum. I 
think it has actually exacerbated tensions and threats to these 
minority communities, not because people are directly targeting 
them with gunfire but, because it t has enhanced divisions 
between Baghdad and Erbil, and between Arabs and Kurds. The 
outcome is going to prevent some of these groups--the 
internally displaced populations, from going back to their 
territories.
    So there are regional threats. There are threats from the 
militias taking advantage of this instability. And the minority 
groups have very weak security forces themselves to protect 
themselves.
    So what do we do?
    My recommendation is that we have to look at the underlying 
political issues. If you do not handle the political issues, 
then the minority groups are still going to be caught in the 
crossfire. This situation is highly localized. It is complex. 
And it is tied to the cohesion of the Iraqi state.
    I would suggest three recommendations.
    One is to support minority group rights in conjunction with 
the Iraqi Constitution. There is a Constitution that exists. We 
should enhance decentralization and self-protection within the 
existing Iraqi structure.
    There is also a need for developing a security and 
political architecture to which should include training 
minority police. Local police in every community across Iraq, 
by the way, every Sunni Arab community I talked to as well, and 
every Kurdish locality, needs and wants local protection, 
because they do not trust people outside their communities. I 
think the Assyrians and Yazidis are the most affected, because 
they have been the most neglected.
    Third, the U.S. should reinforce a sovereign civil state 
and Iraqi institutions. This last trip 2 weeks ago was very 
insightful in the fact that when I was in Baghdad, I spoke to 
Sunni Arab tribal sheikhs, minorities, and others, and I 
perceived some kind of cautious optimism. Many told me that 
Iraqis want a civil state.
    This trend is fighting against sectarianism. There are 
groups that are coming together at a local level. They are 
having cultural exchanges, educational exchanges.
    And this is very good momentum. It is a moment. There is a 
very strong movement of Iraqi nationalism right now. There is 
great pride in the counterterrorism forces that, by the way, 
the United States trained. This is a great success.
    And nearly every Iraqi I spoke to, even Sunni Arab tribal 
sheikhs who are criticizing the Iraqi Government, said that 
they trust these people [counter terrorism forces]. So this is 
a moment and I think that we should build upon the movement 
toward a civil state. Grand Ayatollah Sistani is calling for 
this.
    We also should move away from using ethno-sectarian 
language--Sunni, Shia, Kurd--that most Iraqis do not want to 
use. We are creating it. We are enforcing it. And they are 
trying to move away from it.
    My final point is, because so much of this is rooted in the 
disputed territories, we should mediate key issues regarding 
these areas. We have leverage. We should help broker local 
power and revenue-sharing agreements not only between Baghdad 
and Erbil but between the local communities. We should use our 
leverage. We have it.
    Thank you.
    [Dr. Natali's prepared statement follows:]


                  Prepared Statement of Denise Natali

    Mr. Chairman, Mr. Ranking Member, and distinguished members of the 
committee, thank you for the opportunity to testify today on the future 
of Iraq's minorities after the defeat of the Islamic State of Iraq and 
Syria (ISIS). I would like to note that these views represent my own 
and not those of the United States government, the Department of 
Defense, or the National Defense University.
    The prospects for Iraq's most vulnerable minorities after ISIS are 
tied to the larger framework of Iraqi politics and minority group 
dynamics. They will likely be affected by post-ISIS stabilization 
challenges. These challenges include, but are not limited to ethno-
sectarianism, disputes between the Iraqi government and the Kurdistan 
Regional Government (KRG), and the proliferation of militias.
    Iraq's minorities are not monolithic. They represent about ten 
percent of the Iraqi population and include Assyrians, Yezidis, 
Mandaeans (Sabians), Turcoman, Armenians, Circassians, Jews, Kaka'is, 
Shabaks, and Faily Kurds. Most of these groups live in northern Iraq; 
the Ninawah Plains, Kirkuk, Sinjar and other localities. Although these 
territories have become politicized as `disputed areas'--lands claimed 
by the Iraqi government and the KRG--they are regarded by Assyrians and 
Yezidis as ancestral lands. Since the breakdown of the Iraqi state and 
emergence of sectarian conflict in 2003, the most vulnerable non-Muslim 
minorities have been the Christians (Assyrians/Chaldeans/Syriac and 
Armenians) and Yezidis. According to a report by Minority Rights Group 
International, from 2005-2014 the Yezidi population decreased from 
700,000 to approximately 500,000. Christian populations also fled 
Baghdad during this period, with about fifteen percent remaining.
    Threats against Christians and Yezidis increased significantly 
after the ISIS onslaught in June 2014. Reports indicate that about 
9,900 Yezidis were killed or captured by ISIS while 6,800 others were 
kidnapped, with over a third still missing. Thousands of Yezidis also 
escaped to Syria, Jordan and other states, adding to refugee strains. 
By 2016 Christian populations declined from about 1.4 million to about 
300,000. At present, most Christians and Yezidis in Iraq are living as 
internally displaced persons (IDPs) in camps inside the Kurdistan 
Region, with smaller numbers in central or southern Iraq.
    Despite a shared persecution for their religious beliefs, Iraq's 
minorities are fractured. Successive Iraqi governments attempted to 
exploit religious differences between Christian denominations, and 
these differences persist today. Religion also overlaps with ethnicity, 
language, and geography within and across groups. Some Yezidis 
emphasize their Zoroastrian roots and differentiate themselves from 
``Sunni Kurdish Muslims,'' while affiliating more closely with secular 
groups. Others, however, regard their Yezidi identity as being 
ethnically Kurdish first. These differences often overlap with 
political affiliations. Yezidis living in northern Ninawah and in Dohuk 
province support the KRG while others, mainly in Sinjar and southern 
Ninawah, back the Iraqi government. Still others are independent and 
seek their own autonomous region. The Yezidis are also isolated by 
their own traditions--to include a caste-like system that restricts 
marriages within the Yezidi community. Similarly, Assyrians regard 
themselves as a distinct ethnic group with their own language that is 
in danger of extinction, a sentiment that has grown alongside increased 
KRG control of Ninewah. Assyrians are also divided between supporters 
of Baghdad and Erbil, and independents.
After ISIS: Vulnerabilities and Opportunities
    The liberation of former ISIS safe-havens has provided some 
reprieve for minorities and encouraged the return of IDPs. According to 
the International Organization for Migration, by September 2017 about 
2.2 million of about 3.2 million IDPs had returned to their homes. The 
vast majority of these IDPs are Sunni Arabs, and about 20,000 of 
200,000 Assyrians from the Ninawah Plains. Some Yezidis have returned 
to northern Ninawa but not to Sinjar, which according to local groups, 
remains ``a ghost town'' since its liberation three years ago. What 
prevents a more robust return of Christians and Yezidi IDPs?
    The main obstruction to IDP return is ongoing security threats and 
lack of services. Some localities remain dangerous; public buildings 
and homes are destroyed and/or filled with improvised explosive devices 
(IEDs). Reconstruction support is also lacking. Another reason is a 
deep sense of mistrust and vulnerability. Yezidis and Christians 
victimized by ISIS distrust government authorities in Baghdad and 
Erbil, as well as some Sunni Muslim groups--Arabs and Kurds. Most 
Yezidis from Sinjar blame Peshmerga from Masoud Barzani's Kurdistan 
Democratic Party (KDP) for disarming and abandoning them during the 
ISIS onslaught, which led to the mass atrocities against them. Post-
liberation security arrangements have exacerbated their sense of fear 
and mistrust. One Yezidi man from Sinjar told me that former ISIS 
militants and members from some Sunni Kurdish and Sunni Arab tribes 
made deals with the KDP to help stabilize the border area. He affirmed 
that ``they shaved their beards and are now walking around Dohuk, 
Sinjar and other areas.'' Those Yezidis who do not support the KDP have 
been obstructed from returning to Sinjar by KRG Peshmerga.
    IDP return is also inhibited by the presence of various militia 
groups that have proliferated since 2014 and which control checkpoints 
and influence local activities. These militias are tied to the Iraqi 
government, KRG, or Iran (and to a lesser extent, Turkey). In Mosul, 
Iranian-backed militias are recruiting Sunni Arabs through salaries, 
food provisions, and security--services which until now, are not 
offered by the Iraqi government. In the Christian town of Bartella, 
recently liberated from ISIS, there is a new Imam Khomeini primary 
school with flags of Iran. Although these militias and institutions are 
not targeting Christians and Yezidis directly, they are feeding local 
power struggles, sectarianism, and the risk of conflict.
    Minority groups are caught in the political cross-fire between 
Baghdad and Erbil and have become cannon fodder for everyone else's 
contestations. A key tension involves unresolved claims to disputed 
territories and their resources, the vast majority of which have fallen 
under the de-facto control of the KRG, but which remain 
administratively and legally under Baghdad's authority. The KRG has 
expended important resources on some Christian and Yezidi populations 
as part of its larger aim to annex the territories into a future 
Kurdish state or expanded Kurdistan Region. In two Christian towns in 
Ninewah, the provincial council, which is largely controlled by the 
KDP, recently replaced mayors with a KDP-Christian party affiliate. 
These dynamics have further divided and weakened Christian groups 
politically. While many Assyrians regard these actions as the 
``Kurdification'' of the Ninewah plain and seek greater autonomy under 
Baghdad's authority, others support the KRG and the largess it has 
offered to local officials.
    In some areas, political tensions have turned to violence since the 
liberation of ISIS safe havens, further inhibiting IDP return. Sinjar 
is a case in point. During my visit to Iraq in March 2017, armed 
conflict broke out in Sinjar between Syrian Kurdish forces tied to the 
KDP and Yezidi affiliates of the Kurdistan Worker's Party (PKK)--which 
has expanded its influence in northern Iraq and disputed areas. The 
conflict also involved Turkey's bombing of PKK bases in Sinjar and 
Syria and resulted in the deaths of 11 people, including KRG Peshmerga 
forces. Since then, some Yezidis have defected from PKK groups and 
joined the Popular Mobilization Units (PMUs) under the auspices of the 
Iraqi government. Still others affiliate with KRG Peshmerga.
    There are small pockets of opportunities for post-ISIS 
stabilization that could potentially reduce minority group 
vulnerabilities. I just returned from another research trip to Iraq two 
weeks ago. I spoke with diverse groups and officials in northern Iraq 
and Baghdad, including Iraqi Prime Minister Haidar al-Abadi, members of 
the Iraqi parliament, Sunni Arab tribal sheikhs, provincial 
representatives, civil society leaders, members of the business 
community, and teachers and students. Most expressed ``cautious 
optimism'' about Iraq's future. Their optimism is tied to an important 
political trend; efforts to create a civil state and diminish ethno-
sectarianism.
    This trend is rooted in a strong sense of Iraqi nationalism that 
has revived since the ISIS onslaught, and demands for political reforms 
and citizens' rights (Of the 150 entities registered for the 2018 Iraqi 
parliamentary elections, 76 have the word civil or civilian in their 
title). Iraqis also largely support al-Abadi, a political moderate, 
although worry about Iranian influences, including former Prime 
Minister Nuri al-Maliki. All--including Sunni Arabs and critics of 
Baghdad--expressed high respect and trust for Iraq's Counter Terrorism 
Forces (CTF). Iraqis are also tired of war. They are attempting to 
build trust across communities through local leaders and educational 
and cultural exchanges within and across governorates.
    Still, ethno-sectarianism persists, particularly among the 
political classes. Powerful blocs in the Iraqi parliament may have 
changed their names, but many remain committed to supporting distinct 
religious and ethnic constituencies; Sunni Arab, Shi'a Arab, and Kurds. 
Regional states also continue to back particular leaders or proxy 
forces that promote sectarian agendas.
    The Kurdish referendum has aggravated challenges to post ISIS 
stabilization.\1\ It has deepened tensions between Baghdad and Erbil, 
enhanced ethnic divisions between Arabs and Kurds, and instigated 
militia groups seeking to assure Iraq's territorial integrity. The 
referendum has raised the ire of the Iraqi parliament--Sunni and Shi'a 
Arabs alike--and placed al-Abadi in the position of having to more 
forcefully assert Iraqi sovereignty and push back the KRG's unilateral 
actions. The Iraqi government, alongside the governments of Iran and 
Turkey, have reacted with a series of economic, political, and security 
measures that aim to assert Iraqi sovereignty. They have threatened to 
use military force to enter and control the disputed territories 
directly, or through militias. The potential for armed conflict that 
will destabilize the Ninewah Plains and Kirkuk and its minority 
populations is significant. Although minorities have developed their 
own local forces, they are tied to Baghdad and Erbil and are likely to 
become further entrenched in the political cross-fire.
---------------------------------------------------------------------------
    \1\ It is important to note that the referendum results are not 
representative of minorities and non-Kurdish populations in the 
disputed territories. A large percentage of Christians and Yezidis 
remain as IDPs and did not vote. Many also reported being threatened by 
Kurdish authorities to vote ``Yes.'' Similarly, most Arabs and Turkmen 
are displaced, oppose the referendum, and did not vote.
---------------------------------------------------------------------------
Recommendations: Protecting Minorities in a Post-ISIS Iraq
    Even after ISIS is defeated militarily, minorities will remain 
vulnerable to political instability in the disputed territories. This 
vulnerability is complex, highly localized, and tied to the cohesion of 
the Iraqi state. The challenge will be to create conditions that keep 
minorities out of the cross-fire between Baghdad and Erbil, minimize 
regional interventions, allow IDPs to return to their homes, and assure 
some form of local autonomy and self-protection.
    It is in the U.S. interest to assure the stability of Iraq after 
ISIS is defeated so that minority communities remain in Iraq and their 
homelands. U.S. policy should be based on a nuanced understanding of 
minority groups that addresses their distinctions and role in the 
larger Iraqi political arena. The U.S. should:


   Support local minority rights in conjunction with the Iraqi 
        constitution. Efforts to stabilize Iraq after ISIS and 
        ascertain minority group rights should be made within the 
        framework of the existing Iraqi constitution. The U.S. should 
        support a political and security architecture that allows 
        people within localities to administer and secure their own 
        areas. All assistance should be conducted in cooperation with 
        the Iraqi government and based on enhancing local 
        decentralization and self-protection of minority groups. This 
        effort can include training local minority police as part of 
        Iraqi security forces and helping to integrate minority group 
        PMUs into official state institutions, to include provincial 
        structures and the KRG as part of a unified Iraqi state.
   Reinforce a sovereign, civil state and Iraqi institutions. The U.S. 
        should take advantage of current trends in Iraq that support a 
        civil state and end sectarianism. It should continue to support 
        Iraq's state institutions through clear and consistent 
        messaging that affirms Iraqi sovereignty and territorial 
        integrity. The U.S. should also address Iraqis and its sub-
        state entities as territorial units and refrain from using 
        ethno-sectarian narratives (``Sunni, Shi'a and Kurds'').
   Mediate disputed territories. The U.S. should help mediate tensions 
        between Baghdad and Erbil, to include control over territories 
        and energy resources in the disputed areas. The U.S should also 
        assist in brokering local power and revenue sharing agreements 
        between the Iraqi government, KRG, and provincial councils.


    Senator Rubio. Thank you.
    Are you ready, Senator?
    Senator Kaine. Yes. I am going to defer to Senator Shaheen 
first, since you and I know that we will be staying.
    Senator Rubio. We will be.
    Senator Shaheen?
    Senator Shaheen. I want to start, Mr. Wolf, I guess from 
looking at your report after you came back from your trip. Can 
you comment on the different options to establish security in 
the area? Because clearly, one of the biggest impediments for 
people going back is the lack of security.
    Who can they depend on for security? The Iraqi Government? 
Are there remnants of police officers from their communities 
who can take over? What is the option there for security?
    Mr. Wolf. In every meeting, you are right, Senator, 
security came up in every meeting. The definition of security 
was different depending on who you were talking to.
    They do not want the 82nd-Airborne. They are not asking for 
American soldiers.
    Senator Shaheen. Sure.
    Mr. Wolf. But they would like, they believe, a base, an 
American base, a Western base, where you have American NATO 
forces training, as Dr. Natali said. They would like to see 
some presence of the West there.
    Others are asking that there be some--there was the Levin 
amendment passed by this committee or by Armed Services years 
ago that provided--it is law--provided for the training of some 
of the National Guard. I do not want to call militia, the NPU. 
There are different groups. Train them for human rights, 
religious freedom, basically a police department or basically a 
National Guard. There are a number of options out there.
    Many do not trust some of the more organized groups, 
without getting into controversy. The Yazidis were up on Mount 
Sinjar, and they were told to give their weapons away by some 
people in the Peshmerga. They gave them away. The next morning, 
they woke up--the lady yesterday who testified has lost 19 
people in her family.
    So there is a certain mistrust. One, they would like to see 
a presence of the United States. And I think it does make sense 
to have some base there. We have a base in South Korea. We have 
been there for years. We still have military in Germany. To 
have a NATO base, to have some base there--we have a base in 
South Korea. We have been there for years. We still have 
military in Germany.
    To have a NATO base where you would train their National 
Guard just to defend their villages, not to be a point of the 
spear against anybody. But security was the number one issue. 
Every different time it came up--security, security, security.
    Senator Shaheen. You talked about the Iranian presence 
there. It has been pointed out to me that, in Syria, for 
example, that many of the fighters for Hezbollah and the 
Iranians who are in Syria are moving their families there and 
actually settling, taking over lands that were originally owned 
by the Syrians. Are you seeing evidence of that in Iraq as 
well, either of you?
    Mr. Wolf. Yes, we are. The Iranians are funding a certain 
group, Shia, not those who have been persecuted, but Shia, to 
come in and buy the home of Christians.
    If you are a Christian man and family, do you stay? Do you 
go? Your one daughter is 17, another is 15. Do you go or do you 
not? Are you going to get security?
    So they are selling. So what the Iranians are doing are 
putting people in there to buy properties, and they are buying 
them here, here, through the Nineveh plains.
    Thirdly, they are afraid that Tehran will run this. We have 
seen reports of this guy Soleimani, the Quds there.
    So, yes, the Iranians have a concerted effort to dominate 
that region for a certain portion to create a land-bridge, or 
some people call it a crescent, that will literally go all the 
way into Syria and into the Mediterranean. But, yes, there is a 
formal effort.
    One thing both governments, both the Kurds and Iraqis, 
could do is put a moratorium on selling property for at least a 
period of time. But there is a concerted effort by the Iranians 
to buy up property so they will have people there.
    Senator Shaheen. Dr. Natali, in your opinion, what is the 
balance that should be struck in many of these communities 
between those who want to return to the communities, those who 
want to be resettled elsewhere in Iraq, those who want to leave 
Iraq? Should that be up to the individual folks to make that 
determination? And how can we help make that happen?
    Dr. Natali. Thank you, Senator.
    And I would like to answer the question about Iran, since 
you asked both.
    Senator Shaheen. Sure. That would be great.
    Dr. Natali. Most of these people would like to return, as 
the Honorable Frank Wolf said, if the security was there. They 
are caught between Baghdad that does not have the resources and 
is focused on ISIS and, let's be frank, the Kurdistan Regional 
Government, which according to many, has co-opted,taken care of 
some, and as many Assyrians would say, Kurdified the Nineveh 
plains.
    So we have to be very careful about taking sides between 
these two. The vast majority [of minorities] would like to go 
back and have control and some form of autonomy. That is 
something new.
    Before ISIS came, by the way, there was a motion in the 
Iraqi parliament that aimed to create a new governorate for the 
Assyrians, for the minorities. And then ISIS came.
    There are some discussions going on in Iraq to allocate 
within the existing provincial structures--we are not talking 
about breaking up states--special territorial administrative 
autonomy to these groups.
    So yes, part of the solution is the security. I absolutely 
agree. But we should be careful about which militias we are 
saying really represent these minorities. Many militias are 
saying right now they represent or they do not represent their 
communities. I think we should be careful about getting too 
involved in these contestations..
    The second part is reconstruction. The donations or the 
contributions from donor countries to reconstruct Iraq, are 
minuscule, and the NGO communities are not engaging to the 
extent that they can because of security.
    There are those two elements right there. But I go back to 
my point. This effort should be conducted within the framework 
of the Iraqi state. If we start getting involved in territorial 
engineering, then we are, in my view, fueling some of these 
conflicts.
    I would like to make some points, if I may, about the 
Iranian element, because I think this is important. I did go, 
this last trip, I go regularly back to the region, to look at 
the extent of Iranian influences, in addition to the 
referendum.
    We should be nuanced about this issue. Yes there is 
increasing Iranian influence to fill power vacuums through 
particular militia. In regard to this issue, I spoke to 
officials in the Iraqi Government to include Iraqi Prime 
Minister Haidar al-Abadi, and others. .
    There are two main Iranian-backed Hashi Shaabi groups the 
AAH and Hezb Kata'ib (some also include Badr Brigades). These 
groups represent as low as 10 percent or as much as 30 percent 
of all Hashi Shaabi. They are referred to as the disciplined 
and the undisciplined.
    As long as ISIS is there, Iraqi officials indicate that 
they cannot get rid of them the militias because they are not 
threatening their lives like ISIS. So these groups will like 
remain there for some time.
    Are they gaining influence in some areas? Yes, they are. I 
will give you an example.
    In Mosul, and this was told to me by several leading Arab 
sheikhs that I spoke to, they are recruiting local populations 
through salaries and food baskets. And some people are joining.
    One tribal sheikh told me that he was very worried. ``I am 
losing my people. not to the regular Hashd al-Shaabi, but to 
the Iranian-backed ones.'' So that is a concern.
    , Iran is also extending influence in minority areas. In a 
Christian town called Bartella, there is actually a new Imam 
Khomeini elementary school, and they are flying an Iranian flag 
there.
    Are they directly targeting the Christians? No. Are they 
going to enhance sectarian tensions? Yes.
    The third point is that even though Prime Minister Abadi, 
who I think is someone that we should continue to support--he 
is a moderate--.has done remarkable things in bringing Iraqis 
together., all of this can be used to enhance his challenger, 
former Prime Minister Maliki, including the referendum. That is 
where Iranian-backed groups are going to try to get their 
influence as well.
    So they are there, but I think we should be careful about 
saying all of it is Iranian-focused.
    My final point is, there is a long border between Iran and 
Iraq. The Kurds have a long border with Iran. I lived there for 
many years. When the Iranians shut the border, you are doomed.
    There is a lot of influence between the Kurdish region and 
Iran commercially. You cannot say that you are going to 
completely remove Iranian influence. It is the nefarious, 
undisciplined militia that I think we need to hone in on. That 
is the 10 percent to 30 percent of the militias.
    Finally, we should mindful about how much Iranian militia 
influence can emerge because of the need for services. If a 
militia can provide services in Iraqi localities, people will 
join them, because everybody is human. They want electricity. 
They want food. And they want salaries.
    So not to go off on a tangent, but that is where I see the 
influences that we should be concerned about.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    This is very helpful testimony. It is the treatment of 
minorities, but it is also big picture: What should our Iraq 
policy be? Obviously, they connect so strongly.
    And when minorities get treated poorly, as was the case 
after 2011, a lot of the reason that ISIS was able to run wild 
and get a lot of territory is that the Sunni parts of Iraq felt 
like they had sort of been abandoned by the central government, 
and they were not necessarily immediately going to join up and 
fight against ISIS with a government they did not trust.
    So creating a government that has the trust of minority 
groups is really important not just for the safety of the 
minority groups to avoid genocide but for the future of the 
country.
    There was an article last week in Foreign Policy, ``An 
Ominous Future for Kurdistan's Minorities.'' I just want to 
read a portion and just get you both to comment on this, if you 
think this is sort of an accurate statement.
    ``The issue of the disputed territories, and who will 
ultimately govern them, also throws the fate of Iraq's myriad 
religious and ethnic minorities into question. These groups, 
like the Yazidis, Turkmen, Christians, and the Shabak, have 
been persecuted by ISIS in the disputed territories, and are 
now forced to choose which government--Iraq or the KRG--they 
deem less oppressive. `The competition between the central 
government and the KRG over the loyalty of minority groups in 
the Ninevah plain is one of the main drivers of conflict there, 
from Saddam's time onward.' ''
    If that is the case, if there is this competition between 
the central government and the KRG, and we are dealing with 
both of them, providing aid through Baghdad that goes to the 
KRG, what role should we be playing in trying to reduce this 
tug-of-war and these minority groups sort of being forced to 
choose which government they will be aligned with?
    Dr. Natali. I agree with that Foreign Policy analysis. I 
would say, ``Yes, and.'' ``And'' because of the political and 
security vacuums, because there are also militias and sub-state 
groups that they are also involved in.
    For example, the Kurdistan Workers Party (PKK) groups in 
Syria have made their way to Sinjar. Some people are now also 
forced to choose between Baghdad, Erbil, and other groups in 
these areas. That is one part.
    Another part is responsibility for current threats to 
minorities. I don't blame Baghdad and the Kurdistan region 
equally. Because most of the territories of minorities are in 
northern Iraq, and because the Kurdistan Regional Government 
has taken de facto control of these areas, for minority groups 
the threat is different. For Baghdad, it is because the Iraqi 
government is not giving enough attention to minorities. For 
the Kurdistan region, it is because Kurdish authorities are 
trying to control them.
    -It is important to note that historically, Assyrians did 
not make claims th they were being erased ethnically. They were 
working with the Iraqi Government. Some of he bigger supporters 
of the Iraqi Government were the Christians. It was only after 
2003 and then 2011 that Assyrians started to emphasize the 
Kurdification of the Ninewa Plains.
    I would say, back to keeping the Iraqi state whole, that 
any support to minorities should go through the Iraqi 
Government to existing provincial councils.
    I would not suggest going through the Kurdistan Regional 
Government but through provincial councils and localities.
    This is a different mechanism than saying give support and 
aid to Baghdad, then to the Kurdistan Regional Government, and 
then to the provinces and minorities.
    Senator Kaine. Congressman Wolf?
    Mr. Wolf. I agree with the statement, whoever wrote that.
    We talk to parents and young people. They just want 
security for their families.
    Again, the Christian population has dropped from 1.5 
million in 2003 down to 250,000, some say 150,000. I mean, if 
you have young kids, this is your last year you are going to 
stay. You are not going to wait. You are living in a tent.
    We went into one tent. There was a man who was a technician 
in a hospital in Mosul. And his mother and father were lying on 
the floor. He said, ``I have to get out of here. I have to get 
out."
    So they are waiting to see what we do. That is why, one, I 
think we need fresh eyes. I am not criticizing the previous, 
but it is just to see. Things change.
    Secondly, I think you need one person who has the 
responsibility. I do not know if either of you know Senator 
Danforth. I think John Danforth did an incredible job. It was 
not a full-time job. I think he continued to live out in St. 
Louis for that period of time. But one person who was the point 
of contact.
    What he was able to do, working with Colin Powell, he could 
get to the President, get to Secretary Powell. He was able to 
bring that north-south peace agreement for a new South Sudan.
    I think you need one person who has the support of the 
President, the support of Secretary Tillerson, the support of 
both of you, to give that authority. Because I do not think 
there is any one simple answer, you do this, you do that, it 
all works out.
    But they want to see some progress. And if they do not see 
progress, I think they are going to leave. I had one Catholic 
priest say, ``Help us to stay. But if you are not going to help 
us to stay, help us to leave."
    And lastly, I believe--I am very pessimistic. I believe the 
Iranians will move in so fast. Nasrallah, the people who are 
involved with the Marine barracks--I remember Dan Coats and I 
went to the Marine barracks when they were blown up. Those 
people will have the aid and the support coming directly. They 
will be able to literally get in a van and stop for coffee 
halfway there, and with weapons and fighters and materials to 
aid Hezbollah, which will be a threat.
    We know what they did to the Marine barracks. It will be a 
threat to Israel, but a threat to the entire West.
    So I think it is an issue of helping the Christians and the 
Yazidis and the Turkmen. Also, it is making sure that the 
Iranians do not come in.
    Senator Shaheen asked a good question. If they control that 
area and buy up that property, it will never be reversed, 
certainly not in our lifetime.
    Senator Kaine. Let me just say one other thing before the 
chair, and that is, your last recommendation dealt with H.R. 
390. And as you pointed out in your testimony, that came 
through this committee. I think it came through unanimously. We 
worked on some amendments, and it is on the floor, so it is in 
a slightly different form than it came through the House.
    But we were just conversing. We do not see any challenges, 
so hopefully we can try to U.C. it, or do something to move it. 
It only came onto the committee--I mean, came onto the floor. 
It came out of committee about 10 days ago.
    But I appreciate your encouragement of that. I think that 
is a very strong bill.
    Senator Rubio. A procedural update. Our understanding is 
there is--I have never heard this term before--an informational 
hold.
    Senator Kaine. Somebody wants information before they vote? 
That is so shocking.
    [Laughter.]
    Senator Rubio. Well, anyway, hopefully, we will be able to 
work through that. Then we will have to work out the 
differences between the two. But we are hopeful.
    There are some differences between the House the Senate 
versions, so that makes it a little bit different than some of 
the other things we have done on this territory, because we 
have had to figure out a process for working out those 
differences. But hopefully, that will happen.
    Dr. Natali, I wanted to ask you first just about, because 
you have talked about how the situation with the Kurds has 
exacerbated difficulties, the broader difficulties in the 
region. I know this kind of steps a little bit out of the lane 
of this hearing, but I think it is directly related to it, and 
that is whether the appropriate role of the United States at 
this point is to try to get both sides to sort of lower the 
tension and the rhetoric, not to do anything that provokes the 
other side to have to act or save face.
    In essence, is it not in the best interests of the United 
States, viewing that issue holistically, and I think in the 
best interest of the parties involved, to make the following 
argument to both sides, and that is: We are not asking 
Kurdistans or Barzani or anybody to abandon their desires for 
independence. What we are asking them to do is to take steps to 
lower the sort of temperature, the rhetoric, because there are 
still some issues that need to be worked through.
    And the flip side would be, of course, to ask the 
Government in Baghdad to take some steps that would in no way 
be used against them to argue that they have somehow caved, 
but, by the same token, show a desire to be open to dialogue on 
this topic in the future. But right now, sort of in the 
interim, try to lower the temperature as well, because there 
are still so many other issues at play.
    In fact, the tension between these two is being used in 
many ways by other actors in the region to sort of look for 
strategic advantage.
    Do you think there is an openness on both sides to that? Is 
there openness to that on both sides? Or are they backing 
themselves into a corner from which they can only fight their 
way out of?
    Dr. Natali. Thank you, Senator Rubio. I agree with you on 
that.
    First and foremost, overall, we should be trying--and we 
have leverage--to defuse the tensions..
    That effort is going on behind the scenes. There is what is 
going on in the newspaper, and there is what is going on 
internally.
    To your question, ``Yes, and.'' I THINK we have to be 
careful about the way that we deal with the Kurds as well. Yes 
they are absolutely important partners, and they have provided 
invaluable Peshmerga support. But if we are emphasizing the 
territorial integrity of the Iraqi state and enhancing Iraqi 
state institutions, then ``coddling'' Kurds does not support 
that aim either.
    I think negotiations between Baghdad and Erbil will occur. 
But we are not using our leverage sufficiently with the Kurds. 
We have been very clear about the referendum. And I agree with 
your statements. But we should emphasize to Kurdish officials 
that they also need to go down to Baghdad and negotiate.
    In my discussions with some Kurdish officials the week 
before the referendum, some told me, ``This is great. Now at 
least we have your attention. There was a lot of pressure not 
to have it [referendum] done. BUT NOW WE are back. You cannot 
forget about us now."
    Yes there was an honest desire to have the referendum. But 
there were many people who did not want to conduct it. They 
know they have to negotiate with Baghdad.
    So yes, we should encourage our Kurdish partners to 
compromise because we are providing them with military support. 
My question is, how are we going to use our leverage to 
encourage that negotiation? Many Kurds said to me before the 
referendum, ``You aren't going to do anything. You need us too 
much.''
    They also said ``we are too important for you. If anything 
happens to us you will come and save us.''
    Another problem is that the Prime Minister--who is very 
moderate--is being pressured by most by the people, Arabs and 
other Iraqis, Sunni and Shia, who are reacting to the 
referendum.
    Again, I think our role is to mediate with the Kurds, and 
we should be very careful. We should continue that partnership, 
but should not overly enable the Kurds to the point where their 
leaders think they do not have to cut a deal with Baghdad. And 
I do not think that we have worked that part out quite well.
    Senator Rubio. The only addition I would make to that is my 
feeling is that the Government of Kurdistan would probably be 
open to a number of measures, joint patrols of certain 
crossings, perhaps increased revenue flow back to Baghdad, so 
long as they are not asked to completely abandon or feel like 
they somehow have foreclosed the ability for a dialogue in the 
future about their status.
    I think the potential irritant that no one has counted on 
is the capability of Iranian-controlled militia groups to act 
unilaterally----
    Dr. Natali. That is right.
    Senator Rubio [continuing]. Against a border crossing or 
territorial space in order to trigger a conflict that the view 
would be beneficial to their desire to have control over the 
region and over those oil-producing places, in particular.
    So that is an actor that is probably even outside of 
Abadi's control, and a part of this dangerous game in the 
region. So it is something that bears watching because there 
are, in the context of this hearing, a significant number of 
religious minorities who have sought and received refuge within 
the Kurdish areas who will be directly impacted, if this thing 
heads in a bad direction. So that is why it is related to the 
topic we are discussing here today.
    Dr. Natali. I agree with you. I agree with that point. I 
just want to make one more caveat, and that is, be careful with 
our Kurdish partners. And this has been, again, written in the 
documents by the Assyrian Federation of Europe. Many Assyrian 
think that they are being erased by some of the Kurdish 
authorities as well.
    Again, Baghdad's fault is that they are not paying enough 
attention. Some of the Kurdish region's fault is that they have 
confiscated lands of the Assyrians. The lands were not just 
confiscated by Iranians. They were confiscated by the Kurdistan 
Regional Government as well, and this is documented.
    So we should encourage our partners to watch this behavior. 
If we ignore it and we turn our eye, then it will continue. 
Good partners and good friends should tell their friends not to 
do things that are undermining the minorities as well.
    Senator Rubio. Mr. Wolf, you may have alluded to this in 
your statement, and I may have missed it, and I apologize. But 
when you were there in your recent trip, did you visit with 
U.N. officials during your trip?
    Mr. Wolf. Yes, I did.
    Senator Rubio. So did they indicate to you that they had 
received guidance from the State Department or USAID regarding 
how U.S. assistance dollars were to be handled and spent?
    Mr. Wolf. No, they did not. The woman who runs the U.N. 
program is an American from Texas, a very, very capable person. 
She came up and briefed us, and I think was doing a very good 
job. But she did not get into that.
    Many of the Christians will not go into the U.N.-run camps, 
because they are afraid. Just the young lady yesterday who said 
she saw, and I think she can better explain than I can, she saw 
the man who did terrible things to her living in a camp.
    So the Christian community is afraid to go into the camps. 
And many of the Yazidis are also afraid to go in.
    But overall, I think the U.N. has done some very good 
things. It just has not gotten down to the Christians and the 
Yazidis and some of the religious minorities.
    Senator Rubio. Just that fact that you point to right 
there, is it your view or did you raise that? Was it raised in 
front of you to the U.N. officials while you were there, that a 
lot of the people who need this aid cannot get it because they 
are afraid to come to where you are because of some of the 
people around here?
    Mr. Wolf. Yes.
    Senator Rubio. And their response was?
    Mr. Wolf. There really was not a response. I mean, it has 
been common knowledge that if a Christian family is going to go 
into a camp, in the next tent, is the brother an ISIS 
supporter?
    You are just not going to go there. Many of the Christians 
who have left have gone north. They are in Erbil. They are in 
different camps. They are in old shopping malls. Others have 
moved into Turkey. Others have moved into Lebanon.
    Many would want to come back. It is a beautiful country. 
The northern part of Iraq is magnificent. The biblical history 
there, when we were there, we went to Nahum's tomb, Old 
Testament. The history is so rich. And they love their country. 
And, I might say, they are really a people of strong faith.
    But they are not going to go into those camps. They are 
just not going to go in.
    And most of our money has been going in to the U.N. It is 
now time for Mark Green to take some of that and give it to the 
Yazidis. Let's have a counseling program for the Yazidi women 
and girls. Let's bring in IJM, or let's bring in different 
psychological people to give counseling.
    We met with the leader of the Yazidi community, Baba 
Sheikh. They need help, when they rescue these people. What do 
these women do? So they need help.
    But also, let's give it to the Christian community. 
Bartella, Qaraqosh, when they come back, the water system, help 
them with their houses.
    They feel, and I think if you talk to the Knights of 
Columbus and some of the others--and let me say, the Knights of 
Columbus have done an incredible job. Another group, 
Samaritan's Purse, has done an incredible job. I was with a 
Catholic nun, Sister Diana. She says Samaritan's Purse. I asked 
Samaritan's Purse, they say Knights of Columbus. I mean, it is 
the most ecumenical group over there. They love each other.
    Work it through Samaritan's Purse. Work it through Knights 
of Columbus. Work it through World Vision. Work it through 
them.
    But the Christian community, not for any overt meanness, 
but has been neglected. And now that ISIS has pretty much, not 
totally, pretty much been defeated, this is the time to aid the 
Christian community, the Yazidi community, including counseling 
for these young girls.
    As of this moment, they told us there were 3,000 girls 
still being held.
    Senator Rubio. But the best way to describe the situation, 
then, is that there is no ill will here. There is no bad faith. 
The United States Congress has appropriated and directed that 
American taxpayer funding be directed to assist religious 
minorities, including Yazidi and Christian communities. The 
money has been sent to the U.N. in order to do that.
    The U.N. would say the money is here. It is available. They 
can come receive aid. But they do not come for the reasons you 
have outlined.
    And as a result, our intent is not being carried out, and 
it does not seem like the U.N. officials feel as if they are 
under any sort of directive to do anything other than to say it 
is available, but not go any further than that, in terms of 
asking why people are not utilizing it or why they are not 
coming.
    Mr. Wolf. I think you summed it up. I would like to see 
some of our money go to Samaritan's Purse, to World Vision, to 
Knights of Columbus.
    Senator Rubio. In essence, to organizations that are going 
out to those in need, as opposed to waiting for them to come.
    Mr. Wolf. Right. Samaritan's Purse runs a hospital in 
Mosul, just outside Mosul, that I visited. All they treat are 
Muslims. Give it to Samaritan's Purse. Give it to Sister Diana. 
Give it to the Knights of Columbus. The Knights of Columbus, 
they are rebuilding villages.
    So I am not saying that we take everything that goes to the 
U.N., but refunnel some of that money and give it to groups--
not who are new who say, ``I will go in if you give it to 
me''--who are already there.
    Samaritan's Purse has been there for a couple years. 
Knights of Columbus has been there for a couple years. Sister 
Diana of the Dominican Sisters are from there.
    Give some money to them so they can help their own 
community, not because they are Christians, but because they 
have been subject to genocide. Give it to some of the Yazidi 
groups, not because they are Yazidis, but because they have 
been subject to genocide.
    So divert some of the money that is going to the U.N. and 
give it to some of these groups.
    Senator Rubio. So then my last question is, your suggestion 
of a special coordinator would be someone who would sort of 
oversee this process and make sure that some of these steps are 
taken?
    And I am not against the notion of a special coordinator, 
but I guess my question is, is it also something that USAID 
under our current structure could also take it upon themselves 
to drive these funds in that direction? But you just feel that 
it will not happen, given all the other things USAID is facing.
    Mr. Wolf. I think there is a resistance in government to do 
this. And secondly, it is not only AID, Senator. You need 
someone at the State Department who is not AID. You need 
somebody who can talk to General Mattis at the Department of 
Defense.
    I mean, I think the model really was Senator Danforth. He 
was able to go anywhere in the government to deal with the 
problem. There were some security problems. The government was 
aiding the Lord's Resistance Army. He was able to go 
everywhere.
    So this person has to have the ability not only to deal 
with AID, the State Department, the Department of Defense, 
Homeland Security, CIA, everybody.
    Also, a citizen who used to show her on his cell phone 
pictures of his wife and children back in the United States. 
Where is Abdul Ameriki? Well, let's track him down. Let's do 
fingerprints.
    Why have we not brought cases against those who beheaded 
the American citizens, the four American citizens? Track them 
down. Bring them to justice.
    My committee, we funded the International Criminal Court. 
We funded Crane to come after Sierra Leone, Charles Taylor. 
They are all in jail now. It took a lot of effort.
    The same thing should be done to bring justice, because if 
these people are not brought to justice, many will embed in.
    Do you remember the story 5 or 10 years ago? You find a 
former worker at a General Motors plant was a Nazi. They embed 
in. They come over.
    Let's find those people. Bring them to justice, the 
International Criminal Court, bring them here.
    So I think this person has to be bigger than just dealing 
with Mark Green at AID.
    Senator Rubio. Got it.
    Senator Kaine?
    Senator Kaine. Just one last point in response to, 
Congressman Wolf, your point about there may be a better way to 
spin this aid, there is a bill that I think has now been 
introduced. The main sponsors are Senators Corker and Coons, 
and I am on as a cosponsor. It is to basically study donations 
to multilateral organizations to achieve ends versus direct 
either bilateral or unilateral, including to NGOs.
    And I cosponsored. I am a fan of multilateral aid. I like 
it. But I am really agnostic, at the end of the day. I just 
want it to do the job for which it is intended.
    And it is a fairly large study, but this may be the kind of 
example that we could use in a study like that. Okay, let's see 
the dollars that we are putting in, how effective are they 
going through a multilateral channel and accomplishing 
antigenocide or relief for displaced persons? And we can 
compare it to more direct or bilateral solutions.
    I think it is the bill that could give us some opportunity. 
This is an example that we could look at. So I appreciate you 
bringing that up.
    Senator Rubio. It is an important point, because what I 
hear you describe, Mr. Wolf, is, basically, a whole-of-
government coordinator that can bring to bear the different 
agencies and tools available to the United States Government in 
a coordinated fashion not just to deliver aid and relief, but 
also reconstruction, assistance with governance and justice, 
bringing people to justice, in particular, this horrifying case 
that you outlined of the U.S. citizen. And if that individual 
is still alive, they should be brought to justice. Even if they 
are not, their name and circumstances should be known to the 
American people.
    Do you have anything further?
    We have gone beyond our allotted time. I thank you both for 
being so patient because of our hearings and the vote and the 
like. This was an important hearing, as you can tell by the 
attendance and the interest. I am glad you were able to shine 
light on it.
    More importantly, you were both able to provide us with 
specific public policy recommendations. Often, we have these 
hearings, and we hear a lot about the problems and some vague 
notions. You both have been pretty specific, which is very 
helpful in terms of our work here and what to advocate for, 
what we need to be pushing for.
    So we thank you both for that.
    The record for this hearing is going to remain open for the 
next 48 hours.
    Senator Rubio. Again, I want to thank both of you for your 
patience, your time, and your work on this topic. It is a lot 
of hard work. Your dedication to it is very critical. Again, 
thank you.
    With that, this hearing is adjourned.

    [Whereupon, at 12:35 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record

  Submitted for the Record by Hon. Frank R. Wolf Distinguished Senior 
              Fellow, 21st Century Wilberforce Initiative



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
</pre></body></html>
